June 22, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Daniel R. Levinson/
                Inspector General


SUBJECT:        States Inappropriately Retained Federal Funds for Medicaid Collections for the
                First Recovery Act Quarter (A-06-11-00064)


The attached final report provides the results of our review of the States’ calculation of the
Federal share of Medicaid collections for the first quarter that the American Recovery and
Reinvestment Act of 2009 was effective.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report
number A-06-11-00064 in all correspondence.


Attachment
   Department of Health and Human Services
               OFFICE OF
          INSPECTOR GENERAL




 STATES INAPPROPRIATELY RETAINED
   FEDERAL FUNDS FOR MEDICAID
COLLECTIONS FOR THE FIRST RECOVERY
           ACT QUARTER




                          Daniel R. Levinson
                           Inspector General

                              June 2012
                            A-06-11-00064
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (the Recovery Act) temporarily
increased the percentage of State Medicaid expenditures paid by the Federal Government.
Although the Recovery Act was passed February 17, 2009, it was retroactive to the quarter ended
December 31, 2008 (first Recovery Act quarter). The Centers for Medicare & Medicaid Services
(CMS) retroactively provided additional Federal funds for the first Recovery Act quarter by
applying the increased percentage to expenditures each State had already submitted; however,
CMS did not include collections, which reduce a State’s expenditures, in that calculation. While
reviewing one State’s collections, we noticed that the increased percentage was not applied for
that first Recovery Act quarter. As a result, the Federal Government paid more money to the
State than it should have. Because of the Recovery Act’s retroactive effective date, we decided
to review the Federal percentages each State applied to its collections and the States’
methodologies for calculating the Federal portion of those collections.

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly administer and fund the Medicaid program. At the Federal level,
CMS administers the program. Each State administers its Medicaid program in accordance with
a CMS-approved State plan.

Pursuant to sections 1903(a)(1) and 1905(b) of the Act, the Federal Government pays its share of
a State’s medical assistance costs under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase
FMAPs at any time. The Recovery Act provided additional Federal funding based on temporary
increases in States’ FMAPs. Additionally, the Act establishes higher, fixed-reimbursement
percentages for certain medical assistance services (e.g., family planning).

States report Medicaid expenditures and the associated Federal share on the Form CMS-64,
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program (CMS-64
report). The CMS-64 report shows the disposition of Medicaid funds used to pay for medical
and administrative expenditures for the quarter being reported and any prior-period adjustments.

To account for overpayments recovered, refunds, and similar receipts, States report collections
on the CMS-64 report. States refund the Federal share of collections, which decreases the
amount of Federal funding States receive for the quarter. If the Federal share of collections is
underreported, the Federal payment for the quarter will be higher than it should be. Conversely,
overreporting the Federal share of collections results in a lower Federal payment for the quarter.




                                                 i
OBJECTIVES

Our objectives were to determine whether States and the District of Columbia (States)
(1) appropriately recalculated the Federal share of collections for the quarter ended
December 31, 2008, using the Recovery Act FMAP and (2) identified the FMAPs used to
calculate amounts that they originally had received for collections.

SUMMARY OF FINDINGS

Of the $1,365,247,114 in total collections reported for the quarter ended December 31, 2008, the
Federal shares of $1,072,543,230 in collections either were recalculated using the Recovery Act
FMAP or did not need to be recalculated because they were related to expenditures reimbursed at
FMAPs for previous quarters. Thirty-five States did not appropriately recalculate the Federal
share for the remaining $292,703,884 in collections using the Recovery Act FMAP. As a result,
they retained $25,012,996 in increased Recovery Act funding. When CMS calculated the
additional Federal funding for the first Recovery Act quarter, it did not include collections in that
calculation. A CMS official stated that recalculating the Federal share of collections using the
Recovery Act FMAP was the States’ responsibility.

Forty-four States did not always identify the FMAPs used to calculate amounts that they
originally had received for collections. Twenty-six States never identified the original FMAPs,
and 18 States used a combination of the reporting quarter’s FMAP and the original FMAPs.
States cited minimal variation in FMAPs over time and difficulties identifying the original
FMAPs as reasons. States that did not identify the FMAPs used to calculate amounts that they
originally had received calculated the Federal share of collections using the FMAP in effect for
the reporting quarter. States that used the reporting quarter’s FMAP to calculate the Federal
share of collections might not have returned the same amount of money as the Federal
Government paid for the expenditures. This could be a particular problem for services that
qualify for higher, fixed-reimbursement percentages.

RECOMMENDATIONS

We recommend that CMS:

   •   recoup the $25,012,996 (Federal share) from the 35 States,

   •   review States’ Federal share calculations for collections reported in subsequent Recovery
       Act quarters and recoup any overpayments related to the Recovery Act FMAPs, and

   •   emphasize that States should calculate the Federal share of collections for which they
       originally received amounts calculated at higher, fixed-reimbursement percentages using
       those same percentages.




                                                 ii
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations. CMS’s
comments appear in their entirety as Appendix D.




                                           iii
                                                      TABLE OF CONTENTS

                                                                                                                                           Page

INTRODUCTION..........................................................................................................................1

      BACKGROUND ......................................................................................................................1
        Medicaid Program ..............................................................................................................1
        Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program.......1
        American Recovery and Reinvestment Act of 2009 ..........................................................1

      OBJECTIVES, SCOPE, AND METHODOLOGY .................................................................2
        Objectives ...........................................................................................................................2
        Scope ..................................................................................................................................2
        Methodology ......................................................................................................................2

FINDINGS AND RECOMMENDATIONS ................................................................................3

      FEDERAL REQUIREMENTS FOR REFUNDING THE FEDERAL SHARE OF
       COLLECTIONS ....................................................................................................................3

      THIRTY-FIVE STATES DID NOT APPROPRIATELY RECALCULATE THE
       FEDERAL SHARE OF COLLECTIONS ............................................................................4

      FORTY-FOUR STATES DID NOT ALWAYS IDENTIFY THE ORIGINAL FEDERAL
       MEDICAL ASSISTANCE PERCENTAGES .......................................................................5

      RECOMMENDATIONS .........................................................................................................5

      CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS .............................6

      OFFICE OF INSPECTOR GENERAL RESPONSE ...............................................................6

APPENDIXES

      A: STATE FEDERAL MEDICAL ASSISTANCE PERCENTAGES
         AND RECOVERY ACT INCREASES

      B: STATE COLLECTIONS NOT RECALCULATED USING THE RECOVERY ACT
         FEDERAL MEDICAL ASSISTANCE PERCENTAGE

      C: STATE METHODOLOGIES FOR CALCULATING THE FEDERAL SHARE
         OF COLLECTIONS

      D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                      iv
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly administer and fund the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to sections 1903(a)(1) and 1905(b) of the Act, the Federal Government pays its share of
a State’s medical assistance costs under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. States
with a lower per capita income relative to the national average are reimbursed a greater share of
their costs. States with a higher per capita income are reimbursed a lesser share. By law, the
FMAPs cannot be lower than 50 percent. For the quarter ended December 31, 2008, the FMAPs
ranged from 50 to 75.84 percent. Although FMAPs are adjusted annually for economic changes
in the States, Congress may increase FMAPs at any time.

Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program

States report Medicaid expenditures and the associated Federal share on the Form CMS-64,
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program (CMS-64
report). The CMS-64 report shows the disposition of Medicaid funds used to pay for medical
and administrative expenditures for the quarter being reported and any prior-period adjustments.
The amount claimed on the CMS-64 report is a summation of expenditures derived from source
documents, such as claims, invoices, cost reports, and eligibility records.

To account for overpayments recovered, refunds, and similar receipts, States also report
collections on the CMS-64 report. Collections include funds the State has recovered from other
parties responsible for a beneficiary’s health care costs, the estates of deceased Medicaid
beneficiaries, and funds collected as a result of States’ program integrity efforts. States refund
the Federal share of collections, which decreases the amount of Federal funding States receive
for the quarter. If the Federal share of collections is underreported, the Federal payment for the
quarter will be higher than it should be. Conversely, overreporting the Federal share of
collections results in a lower Federal payment for the quarter.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, but retroactive to the quarter ended December 31, 2008 (first Recovery Act
quarter), provided fiscal relief to States to protect and maintain State Medicaid programs in a

                                                 1
period of economic downturn. For the recession adjustment period (October 1, 2008, through
December 31, 2010), the Recovery Act provided additional Medicaid funding based on
temporary increases in States’ FMAPs. 1 According to section 5000 of the Recovery Act,
Congress provided for these increases to help avert cuts in health care payment rates, benefits, or
services and to prevent changes to income eligibility requirements that would reduce the number
of individuals eligible for Medicaid. With the Recovery Act increases, the FMAPs for the first
Recovery Act quarter ranged from 56.20 to 83.62 percent. (See Appendix A for States’ regular
FMAPs, Recovery Act FMAPs, and percentage increases to the regular FMAP for the first
Recovery Act quarter.)

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether States and the District of Columbia (States)
(1) appropriately recalculated the Federal share of collections for the quarter ended
December 31, 2008, using the Recovery Act FMAP and (2) identified the FMAPs used to
calculate amounts that they originally had received for collections.

Scope

Our review covered $1,365,247,114 ($828,317,439 Federal share) in collections reported on the
CMS-64 report for the quarter ended December 31, 2008.

We limited our review to documentation supporting the FMAPs and methodologies the States
used to calculate the Federal share of collections. We did not review the collections for
completeness and accuracy. Our objectives did not require a review of States’ overall internal
control structures.

Methodology

To accomplish our objectives, we:

     •   reviewed applicable Federal laws, regulations, and policies;

     •   interviewed CMS officials to obtain an understanding of the requirements for reporting
         collections on the CMS-64 report;

     •   used an information request to the States to obtain supporting documentation for the
         CMS-64 report and answers to questions regarding the reporting of collections;

     •   reviewed the States’ methodologies for identifying the FMAPs used to calculate the
         Federal share of collections;
1
 The Education, Jobs, and Medicaid Assistance Act (P.L. No. 111-226, section 201) extended the recession
adjustment period for the increased FMAP through June 30, 2011.


                                                       2
     •    reviewed the supporting documentation to identify collections with Federal shares
          calculated using the reporting quarter’s regular FMAP and calculated the amount that
          should be refunded to CMS as the difference between the increased Recovery Act FMAP
          and the regular FMAP; 2 and

     •    discussed our results with CMS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                FINDINGS AND RECOMMENDATIONS

Of the $1,365,247,114 in total collections reported for the quarter ended December 31, 2008, the
Federal shares of $1,072,543,230 in collections either were recalculated using the Recovery Act
FMAP or did not need to be recalculated because they were related to expenditures reimbursed at
FMAPs for previous quarters. Thirty-five States did not appropriately recalculate the Federal
share for the remaining $292,703,884 in collections using the Recovery Act FMAP. As a result,
they retained $25,012,996 in increased Recovery Act funding.

Seven States identified the FMAPs used to calculate amounts that they originally had received
for collections. Of the remaining 44 States, 18 States sometimes identified the original FMAPs,
and 26 States never identified the original FMAPs. When the States did not identify the original
FMAPs, they calculated the Federal share of collections using the FMAP for the reporting
quarter.

FEDERAL REQUIREMENTS FOR REFUNDING THE FEDERAL SHARE OF
COLLECTIONS

Pursuant to section 1903(a)(1) of the Act, CMS reimburses each State at the FMAP for the
quarter in which the expenditure was made. When a State recovers a prior expenditure, it
refunds the Federal share by reporting the recovery on the CMS-64 report at the FMAP used to
calculate the amount it originally had received. The CMS State Medicaid Manual (the manual),
section 2500.6(B), instructs States to:

         … determine the date or period of the expenditure for which the refund is made to
         establish the FMAP at which the original expenditure was matched by the Federal
         government. Make refunds of the Federal share at the FMAP for which you were
         reimbursed. When recoveries cannot be related to a specific period, compute the
         Federal share at the FMAP rate in effect at the time the refund was received.

2
 States used the reporting quarter’s FMAP to calculate the Federal share of collections because they were
reimbursed for the original expenditures in the reporting quarter or because they did not relate the collections to a
specific quarter.

                                                           3
         Make adjustments to prior periods in subsequent [CMS-64] forms to reflect the
         correct FMAP rate.

When a State cannot, for some reason, relate the recovery to a specific time period (e.g., because
the State does not operate a recordkeeping system that documents the original FMAP), the State
computes the Federal share at the FMAP in effect at the time the refund is collected and reported
(the reporting quarter’s FMAP). 3

CMS published on its Web site a document titled American Recovery and Reinvestment Act of
2009 Frequently Asked Questions from States (the Recovery Act FAQ), which was dated almost
5 months after the Recovery Act was passed. The Recovery Act FAQ’s question number 58
reinforced the guidance in the manual by instructing States to report collections at the FMAP that
was in effect at the time the expenditure was made. The Recovery Act FAQ further stated that if
a State claimed a Medicaid expenditure using the Recovery Act FMAP, any associated
collections should be reported using the Recovery Act FMAP.

Under CMS’s policies, States that reported collections on the CMS-64 report in the first
Recovery Act quarter but could not document the original FMAP should calculate the refund at
the increased Recovery Act FMAP in effect at the time the collection was reported. If a State
could later document the original FMAP, it may report any difference through a prior-period
adjustment on a subsequent CMS-64 report. A State that used the Recovery Act FMAP to
calculate the Federal share of its expenditures would refund any collections related to those
expenditures at the same Recovery Act FMAP. Additionally, the Act establishes higher,
fixed-reimbursement percentages for certain medical assistance services (e.g., family planning). 4
Because the fixed-reimbursement percentages do not relate to any specific period and are the
same in every reporting quarter, States should refund the Federal share at the percentages set
forth in the Act.

THIRTY-FIVE STATES DID NOT APPROPRIATELY RECALCULATE THE
FEDERAL SHARE OF COLLECTIONS

Thirty-five States did not appropriately recalculate the Federal share for $292,703,884 in
collections using the Recovery Act FMAP. As a result, they retained $25,012,996 in increased
Recovery Act funding. (See Appendix B for the amount each State received.) Twenty-eight of
the thirty-five States never attempted to use the Recovery Act FMAP. The remaining seven
States attempted to use the Recovery Act FMAP but made errors in their recalculations.

CMS retroactively calculated the additional Federal funding for the first Recovery Act quarter by
applying the increased FMAP to expenditures each State had already submitted on the CMS-64
report. However, CMS did not include collections in the calculation of additional Federal
3
  The State must report the recovered amount on the CMS-64 report for the quarter in which the collection is made
(section 2500.1of the manual (instructions for the collection lines on the CMS-64 report)).
4
  Section 1903(a) and 1905(b) of the Act set forth percentages the Federal Government pays for medical assistance
and other costs incurred by State Medicaid programs. For example, section 1903(a)(5) provides that a State will
receive 90 percent of the costs of family planning services and supplies. Section 1905(b) provides that States will be
reimbursed for 100 percent of the costs of services furnished through an Indian Health Service facility.

                                                          4
funding for the first Recovery Act quarter. A CMS official stated that recalculating the Federal
share of collections using the Recovery Act FMAP was the States’ responsibility.

FORTY-FOUR STATES DID NOT ALWAYS IDENTIFY THE ORIGINAL FEDERAL
MEDICAL ASSISTANCE PERCENTAGES

Only seven States identified the FMAPs used to calculate the amounts that they originally had
received for collections. The remaining 44 States did not always identify the original FMAPs,
citing in the responses to our information request reasons such as (1) a minimal variation in
FMAPs over time, (2) the increased workload associated with identifying the original FMAPs,
(3) incomplete information about the collections, and (4) limited computer system capabilities.
When the States did not identify the FMAPs used to calculate the amounts that they originally
had received, they calculated the Federal share of collections using the FMAP in effect for the
reporting quarter.

The 44 States that did not always identify the original FMAPs calculated the Federal share of
collections as follows:

   •   Twenty-six always used the FMAP in effect for the reporting quarter rather than
       identifying the original FMAPs.

   •   Eighteen used a combination of the FMAP in effect for the reporting quarter and the
       original FMAPs.

(See Appendix C for each State’s methodology for calculating the Federal share of collections.)

States that used the reporting quarter’s FMAP to calculate the Federal share of collections might
not have returned the same amount of money as the Federal Government paid for the
expenditures. This could be a particular problem for services that qualify for higher,
fixed-reimbursement percentages. For example, if a State used the regular reporting quarter’s
FMAP to calculate the Federal share of family planning recoveries, then that State would not
have returned the full 90 percent that the Federal Government paid.

RECOMMENDATIONS

We recommend that CMS:

   •   recoup the $25,012,996 (Federal share) from the 35 States,

   •   review States’ Federal share calculations for collections reported in subsequent Recovery
       Act quarters and recoup any overpayments related to the Recovery Act FMAPs, and

   •   emphasize that States should calculate the Federal share of collections for which they
       originally received amounts calculated at higher, fixed-reimbursement percentages using
       those same percentages.


                                                5
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations.
Additionally, CMS indicated that the report does not address whether States made later
adjustments to the reported collections to account for the application of the incorrect FMAP for
the first Recovery Act quarter.

CMS’s comments appear in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

Although we did not specifically note them in the report, we accounted for adjustments that
States made through the quarter ended June 2010. Eight States adjusted the Federal share of
collections reported for the first Recovery Act quarter, and the adjustments either partially or
completely corrected the overpayments. We acknowledge that States may have made adjustments
in quarters subsequent to June 2010 in response to our audit.




                                                6
APPENDIXES
                                                                          Page 1 of 2

APPENDIX A: STATE FEDERAL MEDICAL ASSISTANCE PERCENTAGES AND
                    RECOVERY ACT INCREASES

                           Regular FMAP for      Increased
                           the First Recovery   Recovery Act
             State            Act Quarter          FMAP        Increase
    Alabama                      67.98%           76.64%        8.66%
    Alaska                       50.53%           58.68%        8.15%
    Arizona                      65.77%           75.01%        9.24%
    Arkansas                     72.81%           79.14%        6.33%
    California                   50.00%           61.59%       11.59%
    Colorado                     50.00%           58.78%        8.78%
    Connecticut                  50.00%           60.19%       10.19%
    Delaware                     50.00%           60.19%       10.19%
    District of Columbia         70.00%           77.68%        7.68%
    Florida                      55.40%           67.64%       12.24%
    Georgia                      64.49%           73.44%        8.95%
    Hawaii                       55.11%           66.13%       11.02%
    Idaho                        69.77%           78.37%        8.60%
    Illinois                     50.32%           60.48%       10.16%
    Indiana                      64.26%           73.23%        8.97%
    Iowa                         62.62%           68.82%        6.20%
    Kansas                       60.08%           66.28%        6.20%
    Kentucky                     70.13%           77.80%        7.67%
    Louisiana                    71.31%           80.01%        8.70%
    Maine                        64.41%           72.40%        7.99%
    Maryland                     50.00%           58.78%        8.78%
    Massachusetts                50.00%           58.78%        8.78%
    Michigan                     60.27%           69.58%        9.31%
    Minnesota                    50.00%           60.19%       10.19%
    Mississippi                  75.84%           83.62%        7.78%
    Missouri                     63.19%           71.24%        8.05%
    Montana                      68.04%           76.29%        8.25%
    Nebraska                     59.54%           65.74%        6.20%
    Nevada                       50.00%           63.93%       13.93%
    New Hampshire                50.00%           56.20%        6.20%
    New Jersey                   50.00%           58.78%        8.78%
    New Mexico                   70.88%           77.24%        6.36%
    New York                     50.00%           58.78%        8.78%
    North Carolina               64.60%           73.55%        8.95%
    North Dakota                 63.15%           69.95%        6.80%
    Ohio                         62.14%           70.25%        8.11%
                                                                             Page 2 of 2

                              Regular FMAP for      Increased
                              the First Recovery   Recovery Act
                 State           Act Quarter          FMAP        Increase
        Oklahoma                    65.90%           74.94%        9.04%
        Oregon                      62.45%           71.58%        9.13%
        Pennsylvania                54.52%           63.05%        8.53%
        Rhode Island                52.59%           63.89%       11.30%
        South Carolina              70.07%           78.55%        8.48%
        South Dakota                62.55%           68.75%        6.20%
        Tennessee                   64.28%           73.25%        8.97%
        Texas                       59.44%           68.76%        9.32%
        Utah                        70.71%           77.83%        7.12%
        Vermont                     59.45%           67.71%        8.26%
        Virginia                    50.00%           58.78%        8.78%
        Washington                  50.94%           60.22%        9.28%
        West Virginia               73.73%           80.45%        6.72%
        Wisconsin                   59.38%           65.58%        6.20%
        Wyoming                     50.00%           56.20%        6.20%

FMAP = Federal medical assistance percentage
                                                             Page 1 of 2

APPENDIX B: STATE COLLECTIONS NOT RECALCULATED USING THE
  RECOVERY ACT FEDERAL MEDICAL ASSISTANCE PERCENTAGE

                                 Collections
                                    Not
                                Recalculated
                                 Using the       Federal
                                Recovery Act      Share
                  State            FMAP        Overpayment
         South Carolina          $50,370,850    $4,271,448
         Louisiana                37,348,492     3,249,319
         Oklahoma                 31,055,762     2,807,441
         Massachusetts            29,261,233     2,569,136
         Pennsylvania             27,460,932     2,342,417
         Maryland                 19,698,862     1,729,560
         Connecticut              12,533,971     1,277,212
         Missouri                 15,182,598     1,222,199
         Oregon                   11,060,099     1,009,787
         Arkansas                 14,293,640       897,085
         Tennessee                 6,473,707       580,691
         Indiana                   6,283,934       563,669
         Colorado                  4,650,729       408,334
         Wisconsin                 5,508,035       341,498
         Mississippi               3,575,441       278,169
         Maine                     3,417,437       273,053
         Kentucky                  3,104,449       238,111
         Georgia                   2,571,806       230,177
         Nevada                    1,083,025       150,865
         Wyoming                   2,056,761       127,519
         District of Columbia      1,546,592       118,778
         New Jersey                1,287,903       113,078
         New Mexico                1,596,339       100,862
         Washington                  389,386        36,135
         Alaska                      255,114        20,792
         Vermont                     228,772        18,897
         New York                    143,218        12,575
         Alabama                     143,154        10,991
         Arizona                      67,728         6,258
         Hawaii                       26,702         2,943
         North Carolina               22,117         1,980
                                                                                                           Page 2 of 2

                                                         Collections
                                                            Not
                                                        Recalculated
                                                         Using the              Federal
                                                        Recovery Act             Share
                                    State                  FMAP              Overpayment
                                1
                        Iowa                                        0               1,513
                        Delaware                                3,318                 338
                        Texas                                   1,586                 148
                        Michigan                                  192                  18
                           Totals                       $292,703,884          $25,012,996




1
  Iowa correctly identified the total collections that needed to be recalculated but, because of a formula error, applied
a lower FMAP than the Recovery Act FMAP to one collection item, resulting in the $1,513 overpayment.
 APPENDIX C: STATE METHODOLOGIES FOR CALCULATING
         THE FEDERAL SHARE OF COLLECTIONS


                                                  States That Used a
                                                  Combination of the
                        States That Used the    FMAP in Effect for the
States That Used the   FMAP in Effect for the   Reporting Quarter and
  Original FMAPs         Reporting Quarter       the Original FMAPs
         (7)                     (26)                     (18)
      Alabama                  Alaska                  Colorado
       Arizona                Arkansas                Connecticut
      Kentucky                California                Hawaii
      Nebraska                Delaware                   Iowa
    South Dakota        District of Columbia           Louisiana
       Virginia                Florida                 Maryland
     Wisconsin                 Georgia                 Michigan
                                Idaho                  Missouri
                               Illinois                Montana
                               Indiana                New Jersey
                               Kansas                 New York
                                Maine               North Carolina
                            Massachusetts            North Dakota
                             Minnesota                Oklahoma
                             Mississippi                Oregon
                               Nevada                    Texas
                           New Hampshire              Washington
                            New Mexico                 Wyoming
                                 Ohio
                            Pennsylvania
                            Rhode Island
                           South Carolina
                             Tennessee
                                 Utah
                              Vermont
                            West Virginia
                                                                                                             Page 1 0[2

APPENDIX D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 




                                                                                    Centers for Medicare & Medicaid Services


                                                                                    Administrator
                                                                                    Washington, DC 20201




      DATE:          MAY 02 2012
      TO:           Daniel R. Levinson
                    Inspector General

      FROM:


      SUBJECT:      Office ofInspector General (orG) Draft Report: "States Inappropriately Retained
                    Federal Funds lor Medicaid Collections lor the First Recovery Act Quarter"
                    (A-06-11-00064 )


      Thank you for the opportunity to review and comment on the above-referenced report from orG.
      The Centers for Medicare & Medicaid Services (CMS) appreciates the contributions and valuable
      input from orG on the subject or this study. The report outlines concerns with the Federal
      Medical Assistance Percentage (FMAP) rates States applied to some of the collections reported in
      the first Recovery Act quarter (explained below). Specifically, the report identified $292 million
      out of $1.365 billion that were reported with an incorrect FMAP rate, resulting in the States under­
      relunding $25 million in Federal lunds. Although the American Recovery and Reinvestment Act
      (Recovery Act) of 2009 was enacted in February 2009, it was retroactive to the quarter ended
      December 31,2008 (first Recovery Act quarter). CMS retroactively applied the Recovery Act
      FMAP rate to the current expenditures reported for the first Recovery Aet quarter and asked the
      States to review their rcports for application of the Recovery Act FMAP rate to other reported
      amounts (including collections) and recertify their reports. The OIG report does not address
      whether States made later adjustments to the reported collections to account lor the application of
      the incorrect FMAP for the first Recovery Act quarter.

       DIG Recommendation

       Recoup the $25,012,996 (Federal share) from the 35 States.

       CMS Response

       We concur. eMS will first determine if the States subsequently refunded the identit1ed amounts
       and if not, will initiate recoupment.

       OIG Recommendation

       Review State's Federal share calculations for collections reported in subsequent Recovery Act
       quarters and recoup any overpayments related to the Recovery Act FMAPs.
                                                                                                   Page 2 of2




Page 2- Daniel R. Levinson

eMS Response

We concur, eMS will review State's reponing and initiate recoupment as warranted.

QIG Recommendation

eMS wi ll emphasize that States should calculate the Federal share of collections for which they
originally received amounts calculated at higher, fixed-reimbursement percentages using those
same percentages.

eMS Response

We concur. During monthly regional office teleconference calls, eMS will urge regional siaffia
emphasize to States the imponance of calculating the Federal share of collections for which they
originally received amounts calculated at higher, fixed-reimbursement percentages using those
same percentages.

Additional Technical Comments

[\ is possible that States may have made adjustments in later quarters 10 the amounts reported in
the first Recovery Act quarter, due to the timing afthe retroactive application ofthe Recovery Act
FMAPs. In addition, States that had no t previously implemented a provision to identify original
FMAPs (due to minimal variation in FMAPs over time) may have implemented sueh a provision
in response to the signi fi cant Recovery Act FMAP rates.

We appreciate the efforts that went into this report and look forward to working with OIG on this
and other issues.
